Apili 28, 2000

WILLIAM J. DOWLING
VICE PRESIDENT, ENGINEERING

SUBJECT: Transmittal of Audit Report - Preventive Maintenance of Mail Processing
         Equlpinent at Processing and Distiibution Centers
         (Report Number AC-AR-00-001)


Attached is a report on preventive maintenance of mail processing equipment. The
audit was requested by the chief operating officer and executive vice president. The
audit objectives were to evaluate the integrity of preventive maintenance data in the
Maintenance Management Information System and determine whether preventive
maintenance was performed as scheduled. The audit revealed that the maintenance
system did not provide consistent, complete, and accurate maintenance data that was
needed to manage the preventive maintenance program. Limited tests also disclosed
that preventive maintenance for mail processing equipment was not always perfomied
as scheduled.

Management generally agreed with our recommendations and has planned actions
addressing the issues in this report. Management's comments and our evaluation of
their comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit,
you have questions or need additional information, please contact Bennie M. Cruz,
director, Delivery Operations, at (214) 775-9116 or me at (703) 248-2300.



Robert L. Emmons
Acting Assistant Inspector General
 for Performance

Attachment

cc: Clarence E. Lewis, Jr.
    John E. Potter
    John R. Gunnels
Preventive Maintenance of Mail Processing Equipment                    AC-AR-CiO-Od
at Processing and Distribution Centers


                                  TABLE OF CONTENTS

Parti

Executive Summary                                                           i

Part II

Introduction                                                               1

    Background                                                             1
    Objectives, Scope, and Methodology                                     1
    Prior Audit Coverage                                                   2

Audit Results                                                              4

   Assessment of Maintenance Management Information System                 4
       Integrity of Data                                                   4
       Survey of Preventive Maintenance Program                            6
       System Reliability                                                  7
    Recommendations                                                        7
    Management's Comments                                                  7
    Evaluation of Management's Comments                                    9
   Performance Measurement System                                         10
       Performance Measures                                               10
       Others Factors Affecting Assessment of Preventive Maintenance      11
       Completion of Preventive Maintenance                               12
       Impact of Preventive Maintenance                                   13
    Recommendations                                                       14
    Management's Comments                                                 14
    Evaluation of Management's Comments                                   16

Appendix A. Locations Visited and Surveyed                                17
Appendix B. Management's Comments                                         18
Preventive Maintenance of Mail Processing Equipment                                              AC-AR-00-001
at Processing and Distribution Centers


                                     EXECUTIVE SUMMARY
Introduction                    The chief operating officer and executive vice president
                                requested that we review maintenance of mail processing
                                equipment to evaluate the integrity of preventive
                                maintenance data in the Maintenance Management
                                Information System and determine whether preventive
                                maintenance was performed as scheduled. This report
                                presents the results of our audit. We initially planned to visit
                                19 locations to achieve our objectives. However, we limited
                                ourfieldwork to two locations"' because many source
                                documents were not available, maintenance directives were
                                not consistently used, and some maintenance data was
                                inaccurate and incomplete.

Results In Brief                The Postal Service should implement improvements to .ts
                                Maintenance Management Information System because the
                                system did not provide reliable preventive maintenance
                                data. We found instances where maintenance cost and
                                hour data was incomplete, inaccurate and selected reports
                                contained considerable disparities at the local and national
                                levels. In addition, area and local offices expressed
                                concerns about the completeness and accuracy of the data
                                and their inability to access and use the maintenance
                                system. They also communicated problems with training,
                                guidance, and support provided by headquarters.
                                Consequently, Postal Service management could not use
                                preventive maintenance cost and hour information to
                                effectively manage the preventive maintenance progran
                                and assess whether required maintenance was performed.
                                During our review, we noted that the Postal Service was in
                                the process of making major modifications to the
                                Maintenance Management Information System. When
                                these system changes are implemented, the issues
                                identified in this report may be resolved.

                                Postal Service officials did not have an overall perfomiance
                                measurement system to ensure that preventive
                                maintenance was completed on mail processing equipment.
                                We attempted to assess the completion of preventive
                                maintenance for fiscal year (FY) 1999, but many source
                                documents were not available, maintenance directives were


^ The two locations visited were the Washington, D.C, Processing and Distribution Center and the Baton Ro^ge,
Louisiana, General Mail Facility,
Preventive Maintenance of lUlail Processing Equipment                            AC-AR-CiO-001
at Processing and Distribution Centers


                               inconsistently used, and some preventive maintenance data
                               was not recorded properly at the local level. This condition
                               was compounded because there was no performance
                               measurement system in place. As an alternative, we
                               performed limited tests at two locations visited and found
                               indications that not all scheduled preventive maintenance
                               was performed. The absence of effective preventive
                               maintenance could increase costs, affect safety, and
                               adversely affect the throughput and acceptance rate of mail
                               processing equipment. Insufficient levels of preventive
                               maintenance can result in decreased equipment life,
                               unplanned maintenance activity, and increased frequency of
                               corective maintenance actions.

Summary of                     To improve the integrity of preventive maintenance data in
Recommendations                the Maintenance Management Information System and
                               ensure scheduled preventive maintenance is performed, we
                               recommend the vice president. Engineering assess the
                               current maintenance system and make necessary
                               improvements. Modifications are needed to ensure data ,s
                               consistent, accurate, and complete. We also recommend
                               that a performance measurement system be developed and
                               implemented and current policies and procedures be
                               revised. This would assure that preventive maintenance s
                               completed, mail-processing interruptions are minimized, and
                               unsafe working conditions are avoided.

Summary of                     Management generally agreed with our recommendations.
Management's                   Specifically, management agreed that the Visual
Comments                       Maintenance Activity Reporting and Scheduling system was
                               released prematurely without adequate testing and
                               therefore, did not provide the consistency of data necessary
                               to measure the preventive maintenance performance of the
                               postal sites visited. However, they do feel that most postal
                               equipment throughout the country is receiving adequate
                               preventive maintenance. In addition, management stated
                               that the establishment of incentives for preventive
                               maintenance to ensure that preventive maintenance
                               personnel have adequate time to perform their duties was
                               not feasible. Management's comments are included in their
                               entirety in Appendix B.
Preventive Maintenance of Mail Processing Equipment                     AC-AR-00-001
at Processing and Distribution Centers


Overall Evaluation of    Management's comments are generally responsive to our
Management's       findings      and recommendations. Management's planned
Comments                 actions address the issues identified in this report.
Preventive Maintenance of Mail Processing Equipment                               AC-AR-00-001
at Processing and Distribution Centers


                                       INTRODUCTION
Background                    Preventive maintenance is the planned, systematic,
                              inspection, cleaning, lubrication, servicing, and custodial
                              care required to retain the functional capabilities of mail
                              processing equipment. The objective of preventive
                              maintenance is to improve and prolong equipment life, avoid
                              unplanned maintenance activity, and lower overall
                              maintenance costs. During FY 1998 and FY 1999 the
                              Postal Service incurred approximately $199 million and
                              $163 million respectively, in preventive maintenance costs.

                              The Postal Service established a Maintenance Management
                              Information System to plan, schedule, and document
                              preventive maintenance on mai! processing equipment.
                              This system provides maintenance data relative to
                              equipment, supplies, inventories, cost of parts, productivity,
                              and labor and is comprised of two databases: the Visual
                              Maintenance Activity Reporting and Scheduling system
                              (local database) and National Maintenance Activity
                              Reporting and Scheduling system (national database). The
                              local database is a data collection system that uploads
                              infonmation to the national database. The national database
                              provides information relative to equipment, productivity,
                              labor, and maintenance scheduling. Cun'ent system
                              deployment began in August 1998 and continued through
                              September 1999 for about 500 locations. Postal officials
                              stated the cost to implement this system was about
                              $5 million. During deployment, some problem^were
                              identified and corrected. An updated version ^ | B was
                              being developed, but had not been implemente^i the time
                              of our audit.

Objective, Scope and          The purpose of our review was to determine the integrity oi
Methodology                   preventive maintenance data in the Maintenance
                              Management Information System and determine whether
                              preventive maintenance was performed as scheduled. We
                              issued an interim report titled Review of the USPS
                              Equipment Preventive Maintenance Program (Report
                              Number AC-MA-99-001, dated September 20, 1999)
                              communicating our initial observations regarding the
                              integrity of preventive maintenance data. Based on those
                              results, we revised our initial audit approach. We initially
                              planned to visit 19 locations, but subsequently reduced our
                              visits to two locations when we found that many source




                                                                          -t^lA. SojJ^^^C^iPj
Preventive Maintenance of Mail Processing Equipment                                 AC-AR-00-001
at Processing and Distribution Centers


                                  documents were not available, maintenance directives were
                                  not consistently used, and some maintenance data was
                                  unreliable.

                                  To accomplish our objectives, we interviewed Postal
                                  Service Headquarters Engineering personnel and reviewed
                                  national postal policies and procedures. We also visited two
                                  locations and disseminated surveys to all 11 area offices
                                  and 13^ processing and distribution centers (Appendix A}.
                                  Our surveys gathered information related to data integrity,
                                  local maintenance reviews, training, and headquarters
                                  guidance and support. At the two locations visited, we
                                  interviewed maintenance personnel, observed preventive
                                  maintenance inspections, photographed mail processing
                                  equipment, compared local and national reports, and
                                  reconciled source documents to local reports for FY 1999.
                                  To assist with our review, we requested the Maintenance
                                  Technical Support Center personnel inspect the mail
                                  processing equipment and detem::ine whether scheduled
                                  preventive maintenance was performed.

                                   Our review was conducted between September 1999 and
                                   April 2000 in accordance with generally accepted
                                   government auditing standards and included tests of
                                   internal controls that we considered necessary.

Prior Audit Coverage               In June 1998 the Postal Inspection Service issued an audit
                                   report on Flats Automation (Case No. 038-1234520-PA(2)).
                                   This report addressed five conditions at 14 processing and
                                   distribution plants within the Westem Area.

                                   The report concluded that the Postal Service was not
                                   completing all scheduled preventive maintenance on the flat
                                   sorting machines during the preventive maintenance
                                   windows. Management's decision to perform higher priority
                                   work caused preventive maintenance to be bypassed.




  The processing and distribution centers were not statistically selected.
Preventive Maintenance of Mail Processing Equipment                              AC-AROO-001
at Processing and Distribution Centers



                              The Postal Inspection Service recommended the following
                              corrective action to the vice president, Westem Area
                              Operations:

                              1. Establish the maximum allowable scheduled preventive
                                 maintenance bypass rate for flat sorters (and other mai!
                                 processing equipment).

                              2. Direct plant management to include standard operating
                                 procedures to perform scheduled preventive
                                 maintenance as required for flat sorting machines.

                              Management concurred with the findings and agreed to
                              implement the recommendations. During our audit, we
                              found similar conditions at the locations we visited. This
                              report includes recommendations to address these issues
                              forthe maintenance program nationwide.
Preventive Maintenance of Mall Processing Equipment                                                AC-AR-00-001
at Processing and Distribution Centers


                                          AUDIT RESULTS
Assessment of                   The Postal Service should implement improvements to its
Maintenance                     Maintenance Management Information System because the
Management                      system did not provide reliable preventive maintenance
Information System              data. We found instances where maintenance cost and
                                hour data was incomplete, inaccurate, and selected reports
                                contained considerable disparities at the local and national
                                levels. In addition, area and local offices expressed
                                concerns about the completeness and accuracy of the data
                                and their Inability to access and use the maintenance
                                system. They further communicated problems with training,
                                guidance, and support provided by headquarters.
                                Consequently, Postal Service management could not use
                                preventive maintenance cost and hour infonnation to
                                effectively manage the preventive maintenance program
                                and assess whether required maintenance was performed.

Integrity of Data                Our review disclosed that data in preventive maintenance
                                 reports was inaccurate, incomplete, and contained
                                 signiflcant disparities with costs and hours. Maintenance
                                 managers need accurate cost and hours data to verify and
                                 analyze cost effectiveness, performance, trends, and
                                 efficiencies of mail processing equipment and systems.

                                 Comparison of Reports. We identified considerable
                                 inconsistencies between local and national reports. We
                                 reviewed and compared various local and national reports
                                 (Appendix A) to determine the reliability of maintenance
                                 data. We visited 2 locations, surveyed 13 other locations,
                                 and reviewed reports for 6 types^ of mail processing
                                 equipment. We noted the foiiowing:

                                 •   Local reports'* from 5 of 15 locations did not contain the
                                     same cost information as national reports. The
                                     differences between loca! and national costs totaled
                                     about $538,000 or 11 percent of total costs in the flve
                                     local reports. Comparable cost information was not
                                     available forthe remaining ten locations.



^ Advanced facer-canceler system/input sub-system; delivery bar code sorter; mai! processing flats sorter machine;
optical character reader/input sub-system; small bar code sorter/outpul sub-system, and small parcel and bundle
machine,
* Comparison of FY 1999 local Plant Maintenance Cost Workhours Detailed by Acronym report to national Preventive
Maintenance Costs report.
Preventive Maintenance of Mail Processing Equipment                                              AC-AR-00-001
at Processing and Distribution Centers




                                •   Local reports^ from 8 of 15 locations did not contain the
                                    same hour information as national reports. The
                                    differences between local and national hours totaled
                                    about 43,000 or 15 percent of totai hours in the eight
                                    local reports. Comparable hour information was not
                                    available for the remaining seven locations.

                                •   Two national reports^ from 9 of 15 locations did not
                                    contain the same hour information. The differences
                                    between hours for the nine locations totaled about
                                    23,500 or 6 percent. Comparable hour information was
                                    not available for the remaining six locations.

                                While we could not identify all of the reasons for these
                                differences, we did note that there was no single focal point
                                to oversee and verify the consistency of data transmissions
                                from the local to the national system. Consequently,
                                management did not assure that transactions recorded at
                                the local level were reported in the national database.

                                Comparison of Reports to Source Documents. We
                                compared local reports to source documents at the two
                                locations visited and found that data was not complete and
                                accurate. For the four pieces of equipment reviewed, the
                                system identified scheduled maintenance. However, we
                                found that completion information for 81 routes^ was either
                                not entered or not accepted^ in the system, completion
                                information for 37 routes was recorded more than once and
                                completion information on 222 partially completed routes
                                was recorded as fully completed. These conditions
                                occun-ed because the system allowed these transactions to
                                be recorded or excluded.




  Comparison of FY 1999 local Plant Maintenance Cost Workhours Detailed by Acronym report to national Preventive
Maintenance Costs report and local Workload/Hours Operated Detailed Totals by Acronym report to national
Preventive Maintenance Costs report.
^ Comparison of FY 1999 Preventive Maintenance Costs report to Preventive Maintenance report.
' A route is a series of preventive maintenance tasks for specific types of mail processing equipment.
' The system does not accept preventive maintenance transactions when source documents are input after the nput
cut-off date.
Preventive Maintenance of Mail Processing Equipment                                AC-AR-00-001
at Processing and Distribution Centers



Survey of Preventive          We surveyed 11 area and 13 local offices to obtain
Maintenance Program           feedback on the preventive maintenance program. Most
                              area and local managers indicated that maintenance data
                              was not reliable. Maintenance managers also expressed
                              concerns with the training, guidance, and support provided
                              by headquarters, and their inability to access and use the
                              local and national databases. We did not validate the
                              accuracy of all reported items because of the quantity and
                              significance of the concerns identified by the survey
                              respondents. However, we believe the extent and nature of
                              these concerns support our findings and warrant
                              management attention.

                              Completeness and Accuracy of Data. Officials at 10 area
                              and 10 local offices expressed concems with the overall
                              accuracy and completeness of data. While all offices did
                              not provide speciflc comments, one office stated that data
                              entries were recorded erroneously in the system. For
                              example, one route was reflected in the system seven
                              times, although it was only entered once.

                              Training, Guidance and Support. Although training was
                              available, area and local officials conveyed concerns with
                              training as well as guidance and support. Specifically,
                              maintenance officials at six area and three local offices told
                              us that no training was provided on the current system.
                              Offidals at 13 of the 15 remaining offices told us that
                              training was inadequate for reasons such as system
                              software did not work properiy and instructors were not
                              knowledgeable about the system.

                              Additionally, nine area and five local offices stated there
                              was lack of guidance for system use. Comments were
                              made that tutorials were outdated, too general, and did not
                              provide real life examples. Additionally, offices commented
                              that there were not enough people to respond to technical
                              questions. Conversations with headquarters Engineering
                              officials disclosed that there were two employees in
                              Oklahoma and four in headquarters to support about 500
                              locations. Area and local officials stated that responses to
                              system questions were not always timely.
Preventive Maintenance of Mail Processing Equipment                               AC-AR-00-001
at Processing and Distribution Centers



                              System Access. At nine area offices, officials stated they
                              did not have computer on-line access to either the local or
                              national databases. Officials at some locations indicated
                              they had to contact local offices to obtain needed reports.
                              The officials stated they would be able to monitor preventive
                              maintenance activity more effectively if they had access to
                              the data.

System Reliability            We believe that the considerable disparities in system data,
                              as well as the concems expressed by the area and local
                              offices, raise questions about the system's ability to provide
                              complete and accurate preventive maintenance data. As is,
                              management can not use cost and hour data to effectively
                              manage the preventive maintenance program or to
                              determine whether preventive maintenance is completed.

Recommendation                We recommend the vice president, Engineering:

                              1.   Modify system software to ensure that transactions are
                                   properiy recorded. Specifically, the system should: not
                                   record partially completed routes as fully completed;
                                   accept data from documents that are submitted late;
                                   and not accept duplicate entries.

Management's                  Management agreed with modifying the software to insure
Comments                      that partially completed routes are not recorded as fully
                              completed and to develop a check for duplicate data entries
                              for Maintenance Operation Support clerk verification.
                              However, they did not agree to modify system software to
                              accept data from documents submitted late. They feel that
                              the cun'ent practice of allowing one to two weeks to enter
                              data is sufficient time for all sites. In addition, they have
                              indicated that by extending this time, it would extend their
                              time to provide the data nationally and to the areas.

Recommendation                 2. Implement a formal process to proactively solicit
                                  feedback on the system from all users and take
                                  appropriate corrective action.

Management's                  Management agreed to formalize the current informal
Comments                      process by soliciting feedback, allowing comment on
                              suggestions and providing the field information on what will
                              and what will not be implemented.
Preventive Maintenance of Mail Processing Equipment                               AC-AR-00-001
at Processing and Distribution Centers


Recommendation               3. Verify the consistency of data transmitted from the local
                                database to the national database.

Management's                 Management agreed to perform checks on the consistency
Comments                     of data transmitted from local Visual Maintenance Activity
                             Reporting and Scheduling sites to the National Maintenance
                             Activity Reporting and Scheduling national database. They
                             have also indicated that they will flx the inconsistencies
                             between various Visual Maintenance Activity Reporting and
                             Scheduling preventive maintenance reports and National
                             Maintenance Activity Reporting and Scheduling reports.
                             These fixes will be implemented, tested, and deployed to
                             the field before the end of the fiscal year.

Recommendation                4.   Review and evaluate the adequacy of training for the
                                   Visual Maintenance Activity Reporting and Scheduling
                                   system and ensure adequate training is provided to all
                                   system users.

Management's                  Management agreed to evaluate the adequacy of Visual
Comments                      Maintenance Activity Reporting and Scheduling training.
                              Currently, eight different courses are available. They will
                              evaluate the courses, see if improvements are needed and
                              check to determine if they are being offered enough to meet
                              demand. They plan to complete this effort within 90 days.

Recommendation                5.   Update tutorials to reflect system changes and provide
                                   explicit instructions with practical examples to
                                   troubleshoot input problems.

Management's                  Management agreed with this recommendation. ^Jfiiwill
Comments                      update tutorials as suggested, as part of version g H w h i c h
                              is expected to be released near the end of fiscal yea^OOO.

Recommendation                6. Assess the help desk's current woricload and make
                                 necessary adjustments to ensure the help desk is
                                 appropriately staffed and timely responses are provided
                                 to system users.

Management's                  Management agreed with this recommendation and stated
Comments                      that due to year 2000 pressures and the premature release
                              of Visual Maintenance Activity Reporting and Scheduling
                              software, their help desk operations has been ovenvhelmed.
                              They intend to work on this problem in two ways: providing




                                                                                                 m
Preventive Maintenance of Mail Processing Equipment                                AC-AR-00-001
at Processing and Distribution Centers



                             better tested software, which will lead to fewer questions;
                             and to find additional resources to provide a better help
                             desk operation.

Recommendation                7. Review and evaluate the accessibility of maintenance
                                 system databases to all system users so they can
                                 retrieve information and more effectively manage the
                                 preventive maintenance program.

Management's                  Management stated that access to local system databases
Comments                      is already available and is used by technical specialist as
                              part of their help desk operations. They intend, by
                              May 1, 2000, to provide area staffs access to local system
                              databases and the National Maintenance Activity Reporting
                              and Scheduling national system. They will also, by
                              July 1, 2000, develop and deploy to area staffs multiple
                              software queries to access the preventive maintenance
                              performance of all their sites.

Evaluation of                 Management's comments were responsive to our
Management's                  recommendations, and their actions taken and planned
Comments                      should correct the conditions identified in this finding.
                              Although management does not plan to implement our
                              recommendation to modify system software to allow the
                              system to accept data from documents submitted late, we
                              are satisfied that the actions planned and taken to date v/ill
                              meet the intent ofthe recommendafion.
Preventive Maintenance of Mail Processing Equipment                                AC-AR-00-001
at Processing and Distribution Centers




Performance                   Postal Service officials did not have an overall performance
Measurement                   measurement system to ensure that preventive
System                        maintenance was completed on mail processing equipment.
                              We attempted to assess the completion of preventive
                              maintenance for FY 1999, but many source documents
                              were unavailable, maintenance directives were
                              inconsistently used, and some preventive maintenance data
                              was not recorded properiy at the local level. This condition
                              was compounded because there was no performance
                              measurement system in place. As an alternative, we
                              performed limited tests at two locations and found
                              indications that all preventive maintenance was not
                              performed. Insufficient levels of preventive maintenance
                              can ultimately result in mail processing delays and unsafe
                              working conditions. The Postal Service should establish a
                              performance measurement system and revise current
                              policies and procedures. This would assure that preventive
                              maintenance is completed, mail processing interruptions are
                              minimized, and unsafe working conditions are avoided.

Performance Measures          Headquarters maintenance officials had not established
                              performance measures to evaluate preventive maintenance
                              on mail processing equipment. These officials are
                              responsible for defining and disseminating policies and
                              strategies for maintenance of mai! processing equipment.
                              We found officials had not established performance
                              standards, a performance base line, or an effective
                              oversight process to measure performance and identify best
                              practices. Specifically, the Postal Service had not:

                              •   Formally established or communicated preventive
                                  maintenance goals to area and local offices.
                                  Headquarters Engineering officials stated that
                                  90 percent of scheduled maintenance should be
                                  completed to meet minimum requirements.

                              •   Established a base line to measure performance. A
                                  base line is important to establish current preventive
                                  maintenance levels, from which to compare and
                                  measure future performance. In addition, the Postal
                                  Service had not implemented a formal process to
                                  evaluate performance and identify best practices for
                                  preventive maintenance.




                                                  10
Preventive Maintenance of Mail Processing Equipment                              AC-AR-00-001
at Processing and Distribution Centers


                                  Established an effective oversight process for monitoring
                                  and reviewing maintenance. Postal Service officials had
                                  access to standard reports, but were not using those
                                  reports to identify and connect poor performance in area
                                  and local offices.

Other Factors Affecting       We also noted other factors at the local level affecting the
Assessment of                 ability of Postal Service management to assess completion
Preventive                    of preventive maintenance. Local management, at the
Maintenance                   direction of the area office, is responsible for ensuring
                              maintenance is performed in accordance with national
                              policies, including policy provided in Maintenance
                              Operations Support. Handbook MS-53. In reviewing the
                              preventive maintenance program at the local level, we noted
                              source documents were not always maintained and
                              maintenance directives were not consistently used.
                              Specifically, we found:

                              •   Source documents (PS Fomn 8152, Employee Daily
                                  Activity Card) to record and track preventive
                                  maintenance acfivity were not retained at some locations
                                  for FY 1999. These are the only source documents
                                  used to record preventive maintenance activity in the
                                  Maintenance Management Infonnafion System. These
                                  documents were not kept because the handbook did not
                                  require they be retained after system input. We obtained
                                  information regarding preventive maintenance activifies
                                  from 13 locations and found that 4 did not retain source
                                  documents forthe entire fiscal year.

                              •   Local offices did not always use required guidance to
                                  establish maintenance procedures. Local offices are
                                  required to use Maintenance Management Orders that
                                  provide technical information such as preventive
                                  maintenance checklists and timeframes to develop
                                  maintenance procedures. A comparison of required
                                  Maintenance Management Orders with those actually
                                  used showed that 5 of 15 locations reviewed did not use
                                  required orders for at least one piece of equipment.
                                  Consequently, it would be difficult to determine if the
                                  maintenance performed satisfied current maintenance
                                  requirements.

                              •   We also found that documentation of changes to
                                  Preventive Maintenance Master Lists was not



                                                  11
Preventive Maintenance of Mail Processing Equipment                              AC-AR-00-001
at Processing and Distribution Centers


                                 maintained. The only list available was the one in effect
                                 at year-end. The Preventive Maintenance Master List
                                 established annual maintenance requirements and was
                                 updated periodically throughout the year. However,
                                 when updates occurred, previous versions were not
                                 maintained. As a result, it was difficult to determine
                                 whether cunrent performance levels met all annual
                                 requirements.

Completion of                We performed limited woric at two locations that retained
Preventive                   source documents and found indications that preventive
Maintenance                  maintenance was not completed. Specifically, our review of
                             available source documents for four pieces of mail
                             processing equipment revealed that 17 to 39 percent of
                             scheduled annual preventive maintenance was not
                             completed. The following graph presents our results for the
                             specific equipment reviewed and locations visited.

                     PREVENTIVE MAINTENANCE NOT PERFORMED




                                                                            "BAR CODE
                                                                             SORTER #2




      *WASHINGTON, D.C.                                 ^BATON ROUGE, LOUISIANA

                              Postal Service maintenance technicians assisting us in the
                              review confinned our results at one location. At the
                              Washington, D.C, location they reported that while these
                              machines were capable of operating and processing mail,
                              the overall condition of the equipment was poor. The
                              technicians found deficiencies in the condition of equipment
                              that was attributed, in part, to incomplete preventive
                              maintenance.



                                                  12
Preventive Maintenance of Mail Processing Equipment                                     AC-AR-00-001
at Processing and Distribution Centers



                                Maintenance personnel told us that, in many cases,
                                preventive maintenance was not completed because local
                                Operations personnel did not release the equipment
                                because of the need to process mail. Although
                                maintenance times were negotiated in advance, they were
                                not always adhered to; resulting in less time to perform
                                required preventive maintenance. This condition occurred
                                at two locations visited, as well as, 8 of 13 locations
                                              ^e confirmed, for one piece of equipment at the
                                    _          facility, that 32 of 41 (78 percent) documented
                                bypasses^ were due to operational needs. Consequently,
                                operating requirements took precedence over preventive
                                maintenance.

Impact of Preventive             The absence of effective preventive maintenance could
Maintenance                      increase costs, affect safety, and adversely affect the
                                 throughput and acceptance rate of mail processing
                                 equipment. Insufficient levels of preventive maintenance
                                 can result in decreased equipment life, unplanned
                                 maintenance activity, and increased frequency of corrective
                                 maintenance actions.

                                For example, we asked the Postal Service maintenance
                                technicians assisting us with the audit, to review mail
                                processina equiprrient at the two locations visited. At the
                               m ^ m m a m ^ m ^ m f^^^jnty ^^e maintenance technicians
                               ^ ^ ^ W c ^ ^ ^ ^ f f v e maintenance deficiencies that affected
                                the safety, throughput, acceptance rate, and repair time on
                                equipment. Specifically,

                                     •    Feeders on the four letter-sorting pieces of
                                          equipment reviewed were not properiy aligned. The
                                          misalignment could cause degradation in throughput
                                          and increase the jam rate.
                                     •    Many indicator lights were nonfunctional. This could
                                          result in excessive time to diagnose and repair, in the
                                          case of machine failure.
                                     •    Three machines had emergency stop switches and
                                          safety interiock switches that were nonfunctional,
                                          resulting in unsafe conditions.




 ' A bypass occurs when a preventive maintenance route is not performed as scheduled.




                                                       13

                                                                                                  (b pJ
Preventive Maintenance of Mall Processing Equipment                                             AC-AR-00-001
at Processing and Distribution Centers




         Postal Service maintenance technicians found this emergency stop had been defective since
                July26, 1999, As of October 22, 1999, the equipment had not been repaired.


Recommendation                 We recommend the vice president, Engineering:

                               8. Establish performance measures (levels) for preventive
                                  maintenance and formally communicate expectations to
                                  area and local offices.

Management's                   Management agreed to establish performance levels for
Comments                       preventive maintenance completion. They expect that these
                               performance levels will vary with the criticality of the
                               equipment and with the relative importance of particular
                               preventive maintenance routes. They will also attempt to
                               provide some flexibility for local management to handle
                               unexpectedly high mail volumes while maintaining
                               equipment performance levels. Management expects to be
                               able to issue these performance measures by the end of
                               December 2000.

Recommendation                  9. Develop a base line of preventive maintenance
                                   performance.

Management's                    Management agreed to reimplement within 90 days the
Comments                        baseline of preventive maintenance performance by using
                                the software queries mentioned in response number seven.




                                                      14
Preventive Maintenance of AAail Processing Equipment                               AC-AR-00-001
at Processing and Distribution Centers


Recommendation                10. Monitor actual performance and identify and implement
                                  best practices at all locations.

Management's                  Management agreed to direct area maintenance staffs to
Comments                      monitor preventive maintenance performance at their
                              facilities and provide them with best practices for national
                              distribution. They will complete this by the end of
                              December 2000.

Recommendation                 11. Assess the current reporting system to ensure
                                   information provided can be used to measure
                                   performance.

Management's                   Management agreed to evaluate current Visual
Comments                       Maintenance Activity Reporting and Scheduling reports to
                               determine the accuracy and to assess their usefulness in
                               managing maintenance operations.

Recommendation                 12. Modify nationwide policy to require that source
                                   documents (PS Form 8152, Employee Daily Activity
                                   Card) be retained for at least one fiscal year after
                                   system input.

Management's                   Management agreed to take steps to require retention of PS
Comments                       Fonm 8152, Employee Daily Activity Cards. They will
                               provide this direction to the field before the end of FY 2000.

Recommendation                 13. Ensure that local offices have the latest versions of
                                   Maintenance Management Orders and retain all
                                   versions ofthe Preventive Maintenance Master List for
                                   at least one fiscal year.

Management's                   Management agreed to ensure that local offices had the
Comments                       latest versions of Maintenance Management Orders by
                               updating the master mailing and Maintenance Management
                               Orders master lists annually, in addition, they would direct
                               local offices to retain all copies of preventive maintenance
                               routes for at least one fiscal after using them. They will
                               issue this direction before the end of FY 2000.

Recommendation                 14. Establish incentives for preventive maintenance that are
                                   comparable to those for mail processing operations to
                                   ensure that preventive maintenance personnel have
                                   adequate time to perform their duties.



                                                   15
Preventive Maintenance of Mail Processing Equipment                             AC-AR-OO-001
al Processing and Distribution Centers




Management's                 Management stated that the establishment of incentives for
Comments                     preventive maintenance that are comparable to those used
                             in mail-processing operations is not feasible. Management
                             further stated that they had presented the Overall
                             Equipment Efficiency performance evaluation process to
                             management in the past as a possible incentive for the field,
                             but the process was not accepted. Management felt that
                             Overall Equipment Efficiency performance would be
                             reflected in the existing Economic Value Added
                             performance measures. However, they plan to continue to
                             work closely with operations to increase Overall Equipment
                             Efficiency performance by cooperatively increasing the
                             availability of equipment for the completion of preventive
                             maintenance.

Evaluation of                 Although management stated that establishing incentives
Management's                  were not feasible, we would recommend that management
Comments                      to continue pursuing the establishment of incentives for
                              preventive maintenance. In addition, working closely with
                              operations to increase the availability of the equipment
                              should assist in facilitating the performance of preventive
                              maintenance. We will continue to monitor the establishment
                              of incentives for preventive maintenance.




                                                      16
Preventive Maintenance of Mail Processing Equipment                                     AC-AR-00-001
at Processing and Distribution Centers


            APPENDIX A. LOCATIONS VISITED AND SURVEYED
1. The 11 area offices are: Allegheny, Capital Metro, Great Lakes, Mid-Atiantic
   Midwest, New York Metro, Northeast, Pacific, Southeast, Southwest, and Westem.
2. The 13 survey locations fnot statisti              selected^ include the followinc
   and distribution centers:




3. The following local database reports were reviewed:
   (a) Preventive Maintenance Master List
   (b) Plant Maintenance Cost Wori<-hours Detailed by Acronym
   (c) Plant Maintenance Cost Parts or Material Detailed by Acronym
   (d) Maintenance Workload/Hours Operated Detailed Totals by Acronym
   (e) Preventive Maintenance Completion Rate by Acronym
   (f) Daily/Touriy Routes Scheduled for Crew Report
   (g) Preventive Maintenance Bypassed by Acronym
   (h) Preventive Maintenance Accomplished Report
   (i) Equipment Service Date List
   (j) Overall Equipment Effectiveness
   (k) End-of-Run Report
   (I) Plant Equipment Breakdown Summary Report




                                                  17
Preventive Maintenance of Mail Processing Equipment                                                              AC-AR-00-001
at Processing and Distribution Centers


                    APPENDIX B. MANAGEMENT'S COMMENTS

                  WLUMI J, DOMLK;
                  VaPMMIM
                  Ex

                  ONHED STATES
                  POSmLSERVK£




                   April € ,   2000




                   RJChiARD CHAMBERS
                   DEPUTY ASSISTANH' INSPECTOR GENEFIAL FOR PERFORMANCE
                   OFFICE OF TTHE INSPECTOR GENERAL

                   SUBJECT: Dfaft Audit Report - PrevenUve Maintenance ot Mail Pnscessing Equiprrient m
                            Processing and Distribution Center

                   We have receivea and reviciwed Uie dral^ report of Uie subject audit. We agree tiiat ttw Visual
                   Maimeiance Activity Reporting and ScfKduling (VMARS) system was released prematurely
                   without adequale testing snd trierefore did not pruvide the consistency of data necesMry forthe
                   OIG lo measure the preventive mamtenance perfonnance of the posul sites ihey visited. We do.
                   However, teal that nrtost postal equipment ttiroughout t^e country Is receding aclequaieprevenbve
                   maintenance. Genera! equipment performance, sorter availability, and National Maintenance
                   Infonnation Control System (NMICS) data betarK it was replaced with tne National Mainlenance
                   *AARS (NW.RS> confirm thte.

                   The VMARS system has been under development for some time and is a necessary
                   improvemem forthe Maintenance Activity Reporting and ScreduUng |^lAi%S) system It replaced.
                   MARS used unsupported software tools and was not Y2K compliant. I was a necessary part ot
                   hardware upgrades and integration ofthe msirtfenance sysiem into ttie Information Systems
                   Processing and Distribution [IS P&D] odmlnlstraGve Local Area Networt <L/tN} structure. In
                   addition, tha NMICS mam frame sotlware, w^ic^ had suppoited the maintenance organiutiort for
                   mor? than 20 years and was not Y2K compliant, was scheduled to be replaced in early PV "dd.

                   Under triis pressure, the VMARS software was deployed starting in August 19S8. The
                   deptoymerd vras delayeC between September and February Ic fix ctfOe bugs and stabilize the
                   system. Deployment continuetf unU May 1999, when tho NMICS software was removed iVom
                   service and IWMARS became our mantenance reporting nstional system, initial debugging eflorts
                   were focused on the NMARS connection to Ae Material Oistflbulion inveiTlory Management
                   System (MNDIUS) to ensure lhat spare parts support in the field would not be effected. WorX on
                   the maintenance management portions ofthe notronal softwara was delayed.

                   Unfortunately, it was at thts point the OIG needed a stable environmerat to measure preventive
                   maintenance (pm) perfo/mance. Sites had converted from NMICS to NUM^S at different limes
                   during the yaar, and it was difFicull to match data fram one system to the other as well as to
                   NMARS. However. PM is t)eing regularly sdieduled at hundreds of sites across trie country
                   Major automaUon and mecnanizaliOTi systems are perfomiinQ wStTi over 98 percent BvsilatRlily, it
                   is unfortunate lhat the national and hical systems are having inconsistencies but we feel that we
                   can solve Ihem and are woriOng with the OIG in this effort.




                                                            18
Preventive Maintenance of Mail Processing Equipment                                                               AC-AR-00-001
at Processing and Distribution Centers




                                                                         -2'


                                             .. ,   r Enginet        ,
                  System beginning vrith ttw version^l^release. This process mandstes a standamtzed planning
                  and software testing t>y a separate organizatior. It has allowed us lo significantly improve the
                  quantity of automation software.

                  The foQowlng are our spedfic responses lo Vie recommendalions.

                   Recooiff>endanons #i

                  Modify system software to ensure ttie transactions are properly recorded, SpectncaOy. the
                  system should: nol record partially completed iQutes as fuffy completed; accept dale from
                  documents that are subnvned laie; and not accepl duplicate eniries.

                   Response:

                  We will modify the VMARS system software to insure lhat partially completed routes are'nol
                  reconJed as fully completed. We will also develop a chedt for duplicate data enuies for
                  Maintenance Operation Support (MOS) dert verification. iHowCver, we fed that the currem
                  pndlce of allowing from one Lo two weeks to enter data Ls suffident time for all sites, Exlendirg
                  that time would extend the time for lis to provide the data natJonaDy and to the areas. Sites can
                  still record lale data as a PM workoroer, allowing them to record the time but they would not ba
                  credited with a PM completion for natlonaf reporting. We win also fix the incoisistendes txtween
                  various VMARS preventive maintenance repons and NMAAS icports. These ttxes will be
                  implementBd, lesied, and deployed to the Geld before the end Ofthe fiscal year.

                   Recommendations #g

                   Implement a lormal process to proactively soEdl feedbaclc on me system from all users and take
                   appropriate oonec&ve actiDfi.

                   Response;

                   Uanagement agrees with this recorrvnendatlon. We wOl romiaiize the current infonnat process by
                   soliciting feedback, aOowing comnwrit on suggastioru and providing the field Informaiion on wtiat
                   will and what will not be inpl^nented. This wiQ be completed within 90 days.

                   RftcDmmendHlions IB

                   Verify the consistency of data trensmllted from the local database to the national database.

                   Response:

                   We agree to pertarm checks on the consistency of data transmitted from local VM'kRS sites to
                   the NMARS r\ational database. We wiD also improve built-in cnechs of data integrity. Thb wil tM
                   completed before the end of the fiscal year.

                   F^ecommerxiatlgns #4

                   Review and evaluate the adequacy of training fbr the Visual Maintenance Actlvty Reporting and
                   Scheduling system and ensure adequate training is provided to sD sysiem users.




                                                                19


                                                                                                                          H^
Preventive Maintenance of Mail Processing Equipment                                                              AC-AR-00-001
at Processing and Distribution Centers




                                                                  -3-


                   Rwpons?;
                   We win evaluate Ihe adequacy of VMARS training. Cunvnlly, eight different courses are
                   available via PSTN or resident traintng fium NCED, our training canter in rsiomian, OK. We wil
                   evaluate tna course, see if improvements are needed and check to determbe S It is being offered
                   enough to meet demand. These courses range from a three-weeK resident course covering
                   nainteiwnce operation support usir^ VMARS to three-day sateEte training. Over 2,939 students
                   have been exposed to VUARS training shee March 23,1998. This effort will be corrtpleted within
                   flQ days.

                   Recommendations 95

                   Update tutorials to refled system changes and provide expEcK instructions with practical
                   exarnplasto trouUeshoot input problems.

                   Response:

                   Management agrees witT ttiis recommendation. We will update tutorial as suggested as part of
                   vaiskirUHVexpected to be released near the end of Fiscal Year 2000.

                   Recomrt\eftdatio(w flS

                   Assess the help desk's cunent woikload and make necessary adjustments to ensure the help
                   desk Is apprapriatety staffed artd ttmely responses are provided to system users.



                   MartageftierTt agrees with the recommendation. Due to Y2K pressures and premature release of
                   VMARS sottwara, our Help Desk oper^ion has been aveivrti«imed. We intend to wrOfk on this
                   problem in two ways. Wefeel Ihd bettertestedsoftwaje wiIl)eadtofewerque$tk)ns. Weslso
                   intend to find additional resources to provide a better Help Desk operation.

                   RgcomnentiatlonfT

                   Review and evaluate the accessibility of mahtenanca sysiem databases to aD system users so
                   they can retrieve Irrfomiation and more effedlvdy manage the prevenlive mairrtenaiKe progrvn.

                   Response:

                   Access to local system databases i5 already available and Is used by our technical spedalists as
                   pari of Our Help Desk Dperatjon. VM irteno to prowletfasimonmatlon to area staffs by Uay \.
                   We wiO also provide the access to the NMARS i\alional system. By July 1, we will develop and
                   deploy to area stafTs multiple software queries to access the preventive maintenance
                   perfomunce of all their ales,

                   ReeommentlationsJB

                   EstabDsh performance measures (levels) for preventive nnaintenance and tomially corrmunicate
                   expedations lo area and local offices.




                                                             20
                                                                                                                        (yp
P r e v e n t i v e M a i n t e n a n c e of Mail P r o c e s s i n g E q u i p m e n t                                           AC-AR-00-001
at P r o c e s s i n g a n d D i s t r i b u t i o n Centers




                                                                                           -A-


                                Rgsponae:

                                Managemfifit agrees witn this recommendalion. We wUl establish perfonnance levels fbr
                                prevents maintenance compdetlon. We eicpect that these perfonrunca levels wiD vary with the
                                criticality of Ihe equipmerl and with the relative importance of particular prevwilive maintenance
                                routes. We wifl also aHfimpt to provkle some nexi&aity for local manaQemem to hartdle
                                unexpectedly htgh mai volumes whSe maintaining equipment perfonnance levels We exped to
                                be able to issue these peif ormanca measures by the end of December 2000.

                                 Rficom^nendaliens ilt9

                                 Devetop & base hne of preventive maintenanse perfomiance.
                                 Reroonsc:

                                 We agree with this recommendation. The baseline of preventive maintenance perfonnance
                                 which vas irAerrupted by the terrninatlon of the non-YZK compfianl NMICS system will be
                                 reimplemented wrlhir 90 daya using the software queries mentioned In response number 7.

                                 Recommendations #10

                                 Monitor actual performance and identify and inplement best practices at all locations.

                                 Response:

                                 We wJD direct area maintenarca stafTs to monitor preventivB maintenance perfonnance al their
                                 facilities and pruvide us with best prsdices for nattortal dstribution. We wil complete this by the
                                 end ot December 2000.

                                 Recommendations »11
                                 Assess the current reporling sysiem to ensure irfomialion provioed can be used to measure
                                 perfonnartce.

                                 ReSDO(iyy:

                                 We will evaluate cunam VMARS reports to detsmiine the accuracy and to access ireir
                                 uselulness in manatP^ muitenance Dperatiora.

                                 Recommendations t^2

                                 Modify nationwide polcy to require that source documents (PS Form 8t52, Em[loyee Daily
                                 Adivity Card) be retained for at least one FY after system input

                                 Response:

                                 Management agrees with this recommendation. Retention requirements far Fonn 6152,
                                 Employee Daily Activity Cards, was dropped in our last publication of our MS-£3 handbook as an
                                 effort to simprify pepenwork requirements. We now see It was a mistake and will take steps to
                                 require its retention. We wil pnfvide this direction to the field befoie the end of PV 2000.




                                                                                      21
P r e v e n t i v e M a i n t e n a n c e of Mail P r o c e s s i n g E q u i p m e n t                                       AC-AR-00-001
a t P r o c e s s i n g a n d D i s t r i b u t i o n Centers




                                                                                           -s-
                               Recommendalton5»13

                               Ensure that l a n l offices nave the latest varsiona of Maintenance Management Orders and retain
                               aD versions of dis Preventive Maintenance Mast u«t for at least one fiscal year.

                               Response:

                               We WiD ensure that local offices have the latest versions of Maintenance Uanagement Orders
                               (MMOa) by updating our master maaing UsL Wa wid contnie lo update QM M M D master Ust
                               annually. W t wD retain all versions ofthe Preventive Maintenance (PM) muster list KH- at least
                               one fiscal year by changing our VUARS appacatkxi. We wID save all changes made to a PM
                               route In oiirPM Master ijst for the current fiscal year We wU p i H the PM Master Ust during our
                               VMARS flscBl year dose process and reguire field offices to file this Dsi in their Maintenance
                               Operatian Supftort {MOS) office tor ona fiscal year.

                                Reeommendauon #14

                                Establish incentives for preventhn maintenance that are comparotile those mall processing
                                operations to ensure thai prevemive maintenance personnrt have adequate tjrne to perfonn tbdr
                                duties.

                                Restwnse:

                                Wfc have lound the establishment of incentives for prwenttve maintenance that are comparable
                                to those used in mail processing operations to ensure that preventiva maintenance perwnnel
                                have adequate lime lo perfomi ihcir dt^ies Is not feasible. We presented the Overall Equipment
                                Efficiency (OEE) performance evaluation process to management In the past as a possibla
                                incentive (or the fieM lo acconvAsh pievenfiv« mainttHtaTwe. 1Y» OEE pfocess was i\tft
                                accepted. Management feU that OEE pertamanoe would ba refleaed in the e»sting Economic
                                Value Added (EVA) perlomwnce measurements in place. We will continue to wortt closely with
                                Our operafions customers \o increase OEE performance by cooperatively Increasing the
                                availatflity of a^lpment lo msintenance for the comtietion of preventive maintenance.




                                                                         E. Potter, Richard Porras, John R. Gunnels




                                                                                      22
Preventive Maintenance of Mail Processing Equipment    AC-AR-00-001
at Processing and Distribution Centers




Major Contributors to         Joe Arvizu
This Report                   Suzanne Bing
                              Bennie M. Cruz
                              Hector R. Garcia
                              Rafus Grier, Jr.
                              Cindy A. Jackson
                              Penny Segura
                              Jody J. Troxclair
                              Allison Whitten




                                                  23
